<html>
<title> - ORGANIZATIONAL MEETING</title>
<body><pre>[House Hearing, 117 Congress]
[From the U.S. Government Publishing Office]


                         ORGANIZATIONAL MEETING

=======================================================================

                                HEARING

                               BEFORE THE

                      COMMITTEE ON SMALL BUSINESS
                             UNITED STATES
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED SEVENTEENTH CONGRESS

                             FIRST SESSION

                               __________

                              HEARING HELD
                              
                            FEBRUARY 4, 2021

                               __________

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]
                               

            Small Business Committee Document Number 117-001
             Available via the GPO Website: www.govinfo.gov
                   
                               __________
                                

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
43-320                  WASHINGTON : 2021                     
          
--------------------------------------------------------------------------------------
                  
                   HOUSE COMMITTEE ON SMALL BUSINESS          
                   

                 NYDIA VELAZQUEZ, New York, Chairwoman
                          JARED GOLDEN, Maine
                          JASON CROW, Colorado
                         SHARICE DAVIDS, Kansas
                         KWEISI MFUME, Maryland
                        DEAN PHILLIPS, Minnesota
                         MARIE NEWMAN, Illinois
                       CAROLYN BOURDEAUX, Georgia
                          JUDY CHU, California
                       DWIGHT EVANS, Pennsylvania
                       ANTONIO DELGADO, New York
                     CHRISSY HOULAHAN, Pennsylvania
                          ANDY KIM, New Jersey
                         ANGIE CRAIG, Minnesota
              BLAINE LUETKEMEYER, Missouri, Ranking Member
                         ROGER WILLIAMS, Texas
                        JIM HAGEDORN, Minnesota
                        PETE STAUBER, Minnesota
                        DAN MEUSER, Pennsylvania
                       ANDREW GARBARINO, New York
                         YOUNG KIM, California
                         BETH VAN DUYNE, Texas
                         BYRON DONALDS, Florida
                         MARIA SALAZAR, Florida
                      SCOTT FITZGERALD, Wisconsin

                 Melissa Jung, Majority Staff Director
   Justin Pelletier, Majority Deputy Staff Director and Chief Counsel
                     David Planning, Staff Director
                            
                            
                            C O N T E N T S

                           OPENING STATEMENTS

                                                                   Page
Hon. Nydia Velazquez.............................................     1
Hon. Blaine Luetkemeyer..........................................     3

                                APPENDIX

Additional Material Submitted for the Record:
    Rules and Procedures.........................................     8

 
                         ORGANIZATIONAL MEETING

                              ----------                              


                       THURSDAY, FEBRUARY 4, 2021

                  House of Representatives,
               Committee on Small Business,
                                                    Washington, DC.
    The Committee met, pursuant to call, at 9:35 a.m., in room 
2360, Rayburn House Office Building, Hon. Nydia M. Velazquez 
[chairwoman of the Committee] presiding.
    Present: Representatives Velazquez, Golden, Crow, Davids, 
Mfume, Phillips, Newman, Bourdeaux, Chu, Evans, Delgado, 
Houlahan, Kim of New Jersey, Craig, Luetkemeyer, Donalds, 
Fitzgerald, Garbarino, Hagedorn, Kim of California, Meuser, 
Salazar, Stauber, Van Duyne, and Williams.
    Chairwoman VELAZQUEZ. Good morning. I call the Small 
Business Committee organizational meeting to order.
    Without objection, the Chair is authorized to declare a 
recess at any time.
    I would like to begin by noting some important 
requirements. During the covered period as designated by the 
Speaker, the committee will operate in accordance with H.R. 
965, which was incorporated into the 117th House rule under 
H.R. 8.
    Just as we did last Congress, we will follow guidance from 
the Rules Committee to respect the rights of all Members to 
participate. Standing House and Committee rules and practice 
will continue to apply during hybrid proceedings as well.
    House regulations require Members to be visible through a 
video connection throughout the proceeding. Due to the nature 
of a mark-up, it is extremely important that Members follow 
this rule to ensure a quorum can be established and that 
Members' votes can be recorded by the clerk.
    As a reminder, Members can participate in only one 
proceeding at a time, so if you have another committee 
proceeding or meeting, please sign off and rejoin later.
    If a Member wishes to offer an amendment that has not been 
prefiled, we will take a brief recess to allow for its 
uploading, printing, and distribution, then resume.
    We may also recess briefly to address technical issues in 
the event a Member or witness cannot be recognized to speak.
    Finally, for those Members physically present in the 
committee room today, we will also be following the health and 
safety guidance issued by the attending physician. That 
includes social distancing, and especially the use of masks. I 
request Members and staff to wear masks at all times while in 
the hearing room, and I thank you in advance for your 
commitment to a safe environment for all.
    I want to first welcome all returning and new Members to 
the Small Business Committee. Before we introduce new Members, 
I want to recognize Mr. Blaine Luetkemeyer, who is returning to 
the Committee as Ranking Member.
    Most everyone on the Committee knows that the former 
Ranking Member, Steve Chabot, and I shared a wonderful working 
relationship. Over the years, we moved hundreds of bipartisan 
bills to make the world a little brighter for small businesses.
    While Steve will be sorely missed, I look forward to 
working with Blaine and hope that we can continue this 
committee's tradition of working together.
    As a former small business owner, Ranking Member 
Luetkemeyer brings a breadth of firsthand experience to this 
committee, and he has been a strong voice in Congress for 
programs that benefit small firms.
    We all know that small employers are facing challenging 
times. The pandemic has disproportionately hurt small 
businesses and workers from every corner of our country, and 
they fear losing their livelihoods. It is our duty to implement 
policies to help them rebuild and reshape our nation's 
entrepreneurial landscape.
    During the last Congress, we worked together to pass nearly 
40 bipartisan bills through the committee and the House. It is 
my hope that, given the membership we have this year and the 
defining moment this is for our country, the Small Business 
Committee will achieve even more for small firms in the 117th 
Congress.
    Small businesses deserve our partnership. We have a diverse 
committee, and that is our strength, because we will ensure our 
work benefits all entrepreneurs no matter their location, 
industry, or background. We are their voice in Congress. While 
we may not always agree, it is my hope we can have a productive 
dialogue and do so in a respectful manner. I look forward to 
collaborating with each of you this Congress.
    Now let me take this opportunity to introduce the new 
Members on my side. There are a few new Democratic Members of 
the committee.
    Dean Phillips is a small businessman from Minnesota who is 
committed to working across the aisle. He drafted the Paycheck 
Protection Program Flexibility Act with Representative Chip 
Roy, helping thousands of small employers. He will be a true 
asset to our committee.
    Marie Newman of Illinois brings a breadth of small business 
experience as a former owner of a consulting firm. Throughout 
her career, she has also been an advocate for national issues, 
such as healthcare, LGBTQ, and economic rights. I am confident 
she will be a champion and powerful voice for small businesses.
    Carolyn Bourdeaux of Georgia was a professor of public 
management and policy at the Andrew Young School of Policy 
Studies at Georgia State University before joining us in 
Congress. During the Great Recession, Carolyn was the director 
of the Georgia Senate Budget and Evaluation Office, where she 
worked with both parties to balance Georgia's budget and get 
the state economy back on track. Her experience coupled with 
her commitment to bipartisanship will be instrumental in 
helping small businesses recover from the pandemic.
    We welcome you--all of you, and we are excited that you 
will be serving in this committee.
    I would also like to welcome back the Members who served on 
the committee in the 116th Congress: Jared Golden from Maine, 
Jason Crow from Colorado, Sharice Davids of Kansas, Kweisi 
Mfume from Maryland, Judy Chu from California, Dwight Evans of 
Pennsylvania, Antonio Delgado from New York, Chrissy Houlahan 
of Pennsylvania, Andy Kim from New Jersey, Angie Craig from 
Minnesota. We are very fortunate to have all you back on this 
committee.
    Now I yield to the Ranking Member, Mr. Luetkemeyer, for his 
opening statement and to introduce his new members.
    Mr. LUETKEMEYER. Thank you, Madam Chairwoman.
    I look forward to working with you. You and I have known 
each other a long time--about 12 years, I think, in total--ten 
on this committee. I stepped off a couple years ago, but we are 
back. And, working with you on Financial Services, I think 
there are a lot of areas I believe we can find some common 
ground. I look forward to that opportunity.
    I also want to welcome back the returning Members of the 
committee on both sides of the aisle, and welcome all the new 
Members.
    As we begin this Congress, I want to say that I look 
forward to continuing the tradition of bipartisanship that we 
fostered on this committee on behalf of the nation's 
entrepreneurs and innovators. We always say that small 
businesses are an important economic driver for our nation. 
Now, we must ensure that the small businesses that are 
struggling from the COVID-19 pandemic can keep their doors open 
and have the tools and freedom they need to recover.
    My focus and concentration will be on policies that allow 
small businesses to recover quickly. Additionally, we must 
create an environment where small businesses grow and expand. 
Access to capital, a smart regulatory environment, and an 
appropriate level of taxation are priorities to get that done.
    I look forward to lively debate and informative hearings, 
and productive markups as we address these very important 
topics that will assist the nation's job creators.
    First, I want to recognize Republican Members who are 
returning to the committee: Jim Hagedorn and Pete Stauber, both 
of Minnesota, have made significant contributions to our 
committee's consideration of legislation and policy, and their 
experience will be invaluable as we contemplate the very 
critical issues now facing our nation's small businesses.
    Next, I would like to introduce the new Members of the 
committee: Representative Roger Williams of Texas, who is not 
new to Congress, but new to our committee. He is a small 
business owner, former Texas Secretary of State, and former 
Major League Baseball player, Atlanta Braves. I am sure you are 
going to hear, ``Play ball,'' often this year.
    Representative Dan Meuser of Pennsylvania, who is also not 
new to Congress, but new to our committee. Before coming to 
Congress, he worked for a small healthcare products 
manufacturer where he helped create thousands of jobs, and 
actually marketed his products around the world.
    Representative Andrew Garbarino of New York, a third-
generation small business owner, practicing law with his 
father.
    Representative Young Kim of California, one of the first 
Korean Americans to serve in Congress and a former Member of 
the California State Assembly.
    Representative Beth Van Duyne of Texas, a former city 
council member and mayor, who is used to solving problems that 
we are going to be looking at over the next couple of years.
    Representative Byron Donalds of Florida, who worked in the 
banking, finance, and insurance industries and served in the 
Florida House of Representatives.
    Representative Maria Salazar of Florida, a five-time Emmy 
Award-winning journalist.
    And Representative Scott Fitzgerald of Wisconsin, a former 
Army officer, newspaper owner, and Wisconsin State Senator.
    As this committee considers the many issues related to our 
nation's COVID-19 recovery and economy, I know the knowledge 
and expertise of all of our new Members will be extremely 
helpful.
    Madam Chairwoman, I look forward to working with you and 
our colleagues in a bipartisan manner to address these issues 
impacting the small businesses.
    With that, I would like to present you with a letter of 
what I think are some great topics to begin the year with, 
things that I think are important to our small businesses and 
economy and their role in our economy. And it is pretty 
lengthy.
    I won't go into discussing it, but I think it gives us a 
lot of topics to begin to discuss in the hearings, and I think 
we are going to need to be able to address a lot of these 
issues.
    So, with that, I would like to yield the balance of my time 
to our Vice Chair, Roger Williams from Texas.
    Mr. WILLIAMS. Thank you, Mr. Ranking Member.
    I am also honored to serve with the Chairwoman. We also 
served on Financial Services and have a long relationship as a 
Ranking Member, as a dear friend on this Small Business 
Committee.
    In the 117th Congress, this committee has never been more 
important with the things that we are going to be going over. 
And I will turn my microphone on. After 10 years, I ought to 
know that.
    But this committee will never be--never be more important. 
As someone who has owned a business and still owns a business 
for 51 years, there is a lot of challenges out there for us, 
and I know that this committee is the lifeblood, along with 
small business, of our economy. And Main Street America will 
ultimately turn this country around from the devastation we 
have seen from COVID-19.
    So, Madam Chairwoman, I give you my time back. Thank you.
    Chairwoman VELAZQUEZ. Thank you. The gentleman yields back.
    Colleagues, I look forward to the robust discussions and 
debates that I know will transpire over the next 2 years, and 
now we will move to the rules package.
    With the adoption of today's rules package, I believe we 
are making it clear to the small business community that we are 
committed to working together and advocating on their behalf.
    Pursuant to clause 2(a) of the House rule XI, today's first 
order of business is to adopt the committee rules for the 117th 
Congress. The adoption of the rule is central to the work we do 
and the tone we set in this body. Perhaps most importantly, 
they must ensure that all points of view are considered and 
that the minority retains their full rights to be heard.
    In this context, the rules mirror those of the 116th 
Congress with some minor conforming and clarifying changes. 
Most notable are the renaming of three of the five 
subcommittees and clarifying the Member question order for 
subcommittee hearings.
    Three subcommittee names were modified to reflect the 
change in nature of small business policy priorities. They are 
Innovation, Entrepreneurship, and Workforce Development, 
formerly Innovation and Workforce Development; the next 
subcommittee, Underserved, Agricultural, and Rural Business 
Development, formerly Rural Development, Agricultural Trade, 
and Entrepreneurship; and Oversight, Investigation and 
Regulations, formerly Investigations, Oversight, and 
Regulations.
    The second rule change will clarify Member question order 
for subcommittee hearings.
    During the 116th Congress, many Members of the full 
committee participated in subcommittee hearings when they were 
not members of that subcommittee. While this is permissible 
under the rules, a lack of clarity in the rules for this 
scenario led to confusion with the question order.
    For the 117th Congress, the rules have been amended to 
clearly state that subcommittee Members will be recognized to 
ask questions first before turning to non-subcommittee Members 
with their question order based on full committee seniority.
    This committee needs to run in a cooperative manner. I 
believe the best way to do that is to make sure both sides have 
an equal voice and are treated in a way that is fair. Through 
adoption of these rules, we will continue this practice.
    I would like to thank the staff on both sides for working 
closely on the rules package. At this point, I would like to 
yield to Ranking Member Luetkemeyer for any comments he may 
have on the rules.
    Mr. LUETKEMEYER. Thank you, Madam Chair.
    The committee's rules package before us this morning is a 
product of both sides working together. The rules provide 
opportunities for the majority and the minority to participate 
within all facets of the committee. I thank you for your 
collaboration, and I look forward to working in a bipartisan 
manner on many issues to come.
    I would like to take this time to mention a few of the 
provisions within the rules.
    All subcommittees now have a ratio of six majority Members 
to five minority Members, which allows for appropriate 
representation across the jurisdictional scope of the 
committee. Three subcommittees, as you mentioned earlier, have 
slightly altered names. We appreciate the Chairwoman retaining 
``agricultural'' in the new Underserved, Agricultural, and 
Rural Business Development Subcommittee, as many of our 
members, including the 3rd District of Missouri, have 
agricultural land and family farms.
    The Subcommittee on Innovation and Workforce Development is 
now the Subcommittee on Innovation, Entrepreneurship, and 
Workforce Development. And the Subcommittee on Investigations, 
Oversight, and Regulations is now the Subcommittee on 
Oversight, Investigations, and Regulations.
    But make no mistake. No matter the name of the 
subcommittees, our Members, Republican and Democrat, are 
equally committed to continuing the rigorous oversight for 
which the committee is known.
    Additionally, the new rules now provide, at subcommittee 
hearings, Members of the full committee who are not 
subcommittee Members will have the opportunity to question 
witnesses after the Ranking woman and Ranking Member of both 
the subcommittee and the full committee if they are in 
attendance and all subcommittee Members have inquired. This is 
the way questioning is handled in other House Committees, so it 
make sense that we follow that protocol as well.
    Finally, because of social distancing during the 116th 
Congress, this committee has sometimes been in rooms other than 
2360 Rayburn, our customary hearing room. Our rules now state 
that, for hearings held by the committee or a subcommittee in 
the committee's hearing room or another assigned hearing room 
in Washington, D.C., a quorum will be deemed present if one 
Member from the majority and one Member from the minority are 
present.
    However, the rules continue to state that the Chair will 
exercise reasonable comity by waiting for the Ranking Member, 
even if a quorum is present, before striking the gavel.
    Again, I thank the Chairwoman for working with me on this 
rules package. They provide for a smooth operation of the 
committee, and I urge my colleagues to support it.
    I yield back the balance of my time.
    Chairwoman VELAZQUEZ. The gentleman yields back.
    Are there any Members that wish to be recognized on the 
rules?
    The committee now moves to consideration of the rules 
package. The clerk will read the title of the document.
    The CLERK. Rules and Procedures Adopted by the Committee on 
Small Business.
    Chairwoman VELAZQUEZ. I ask unanimous consent that the 
rules package be considered as read and open for amendment in 
its entirety.
    Does any Member seek recognition for the purposes of 
offering an amendment?
    Seeing no amendments, the question is on adopting the 
rules.
    All those in favor, say aye.
    All those opposed, say no.
    In the opinion of the Chair, the ayes have it, and the 
proposed rules are adopted, and staff is authorized to make 
technical and grammatical changes.
    Pursuant to House rules, the rules adopted by the Committee 
on Small Business for the 117th Congress will be published in 
the Congressional Record and made available to Members and the 
public on the committee's website.
    Now we will approve our Subcommittee Chairs and Ranking 
Members. The full committee Vice Chair will be Mr. Kweisi Mfume 
from Maryland.
    Mr. Jared Golden will be the Chair of the Subcommittee on 
Underserved, Agricultural, and Rural Business Development.
    Mr. Jason Crow will be the Chair on the Subcommittee on 
Innovation, Entrepreneurship, and Workforce Development.
    Ms. Sharice Davids will be the Chair of the Subcommittee on 
Economic Growth, Tax, and Capital Access.
    Mr. Kweisi Mfume will be the Chair of the Subcommittee on 
Contracting and Infrastructure.
    Mr. Dean Phillips will be the Chair of the Subcommittee on 
Oversight, Investigations, and Regulations.
    I now yield to the Ranking Member, Mr. Luetkemeyer, for any 
remarks that he may have to introduce the subcommittee Ranking 
Members.
    Mr. LUETKEMEYER. Thank you, Madam Chair.
    I am pleased to introduce the Republican Ranking Members 
for the 117th Congress.
    First, I want to recognize Roger Williams of Texas, who has 
agreed to serve as Vice Ranking Member of the full Committee.
    Next is Jim Hagedorn of Minnesota, who will serve as a 
Ranking Member for the Subcommittee on Underserved, 
Agricultural, and Rural Business Development.
    Ranking Member for the Subcommittee on Innovation, 
Entrepreneurship, and Workforce Development will be Young Kim 
of California.
    Ranking Member for the Subcommittee on Economic Growth, 
Tax, and Capital Access will be Dan Meuser of Pennsylvania.
    Beth Van Duyne of Texas will be the Ranking Member for the 
Subcommittee on Oversight, Investigations, and Regulations.
    And Maria Salazar of Florida will serve as Ranking Member 
for the Subcommittee on Contracting and Infrastructure.
    I believe the experience of all these talented Members will 
be invaluable as we consider the important issues facing our 
nation's small businesses.
    And, Madam Chair, with that, I yield back.
    Chairwoman VELAZQUEZ. The gentleman yields back.
    I move that the list of subcommittee Chairs and Ranking 
Members and Vice Chair as set forth in the roster be approved.
    All those in favor, say aye.
    Those opposed, say no.
    In the opinion of the Chair, the ayes have it, and the 
Chairs and Ranking Members are appointed.
    This concludes the order of business for today's meeting. 
Does any Member seek recognition for debate before we conclude?
    If not, without objection, this meeting of the Committee on 
Small Business stands adjourned, and the Committee will stand 
in recess for a few moments to prepare for a Committee hearing.
    [Whereupon, at 9:55 a.m., the Committee was adjourned.]
                            
                            A P P E N D I X

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                                 [all]
</pre></body></html>
